Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 9/15/2021 deponent caused to be served 3 copy(s) of the within
Petition for Writ of Certiorari
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

Acting Solicitor General
United States Department
of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

ROBERT MARANGOLA,
Assistant United States
Attorney,James P, Kennedy, Jr.,
United States
Attorney for the Western District
of New York,
Tiffany H. Lee, Assistant United
States Attorney
Rochester, New York
100 State Street Suite 500
Rochester, NY 14614
(585) 263-6760

Sworn to me this

Case Name: Earl McCoy v. USA

Wednesday, September 15,
2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2025

Docket/Case No:
Index:

